No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
XAVIER BECERRA, SECRETARY
OF HEALTH AND HUMAN SERVICES, PETITIONER
v.
EMPIRE HEALTH FOUNDATION,
FOR VALLEY HOSPITAL MEDICAL CENTER
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this
19th day of March, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,760
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
March 19, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 19, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

XAVIER BECERRA, SECRETARY OF HEALTH AND HUMAN SERVICES
EMPIRE HEALTH FOUNDATION, FOR VALLEY HOSPITAL MEDICAL CENTER

DANIEL J. HETTICH
KING & SPALDING LL
1700 PENNSYLVANIA AVENUE, NW
SUITE 200
WASHINGTON, DC 20006
202-626-9128
DHETTICH@SLAW.COM
TERESA A. SHERMAN
PAUKER & TROPPMAN, PLLC
522 W. RIVERSIDE AVENUE
SUITE 560
SPOKANE, WA 99201
509-232-7760
TSHERMAN@PT-LAW.COM

